Office of Inspector General  



   Independent Evaluation Report of
   FMC’s FY 2009 Implementation of
               FISMA
               A10-02




           January 2010


FEDERAL MARITIME COMMISSION
                            FEDERAL MARITIME COMMISSION
                                   Office of Inspector General
                                Washington, DC 20573-0001
                                        January 28, 2010


Office of Inspector General
Chairman Lidinsky:
The Office of Inspector General (OIG) has completed its independent evaluation of information
security pursuant to requirements contained in the Federal Information Security Management
Act (FISMA) of 2002. This is the seventh annual evaluation completed by the OIG in the area of
information and computer security.
As you already know, last year the Office of Information Technology (OIT) sought the
assistance of an outside contractor to perform a comprehensive assessment of its information
security posture. The OIT received significant funding to address the identified weaknesses and
vulnerabilities in its security program. However, this year, at the direction of the Chief
Information Officer, the agency’s contracting officer issued a stop work order after two of four
systems were certified and accredited. The CIO concluded that the agency would be better off
scrapping the two remaining systems and procuring an “off-the-shelf” system that works better
and saves the agency money in the long run.
The OIG did not review that decision as part of this security evaluation. Rather, we focused the
evaluation on the two systems that were certified and accredited. As of the date of issuance of
our report, the two systems that did not undergo security accreditation are in production.
The OIG contracted with Richard S. Carson and Associates to perform the independent
evaluation of the FMC security program. The objectives of the independent evaluation of the
FMC information security program were to:
   1. Assess compliance with FISMA and related information security policies, procedures,
      standards and guidelines;
   2. Perform an external network scan from an IP address outside FMC to identify
      vulnerabilities that would permit unauthorized access to agency resources and databases
      (open ports, missing patches, default or missing passwords, etc.);
   3. Review management actions to implement prior-year OIG recommendations; and
   4. Evaluate the effectiveness of the work completed by the OIT contractors.
The evaluation found that the FMC has taken concrete steps to protect the agency’s systems –
most important is the accreditation of its Network and SERVCON applications - and has made
progress in mitigating weaknesses which led to the prior year’s significant deficiency concerning
IT risk and recovery planning. A significant deficiency is a weakness in an agency’s overall
information systems security program that restricts the capability of the agency to carry out its
mission or compromises the security of its information, information systems, personnel,
operations or assets. The firewall is secure; attempts to penetrate firewall defenses by the
evaluation team from a remote location were unsuccessful. Moving forward, the CIO appears to
have a plan for securing information resources inside the firewall even as the agency updates its
IT infrastructure.
On the other hand, the FMC lacks (i) a comprehensive configuration management program and
technical privacy controls required by OMB, (ii) an adequate Contingency Planning Program, to
include policies, procedures, testing and documentation of testing, and (iii) an official system
inventory. Further, the FMC Network Domain Administrator accounts are not monitored.
I am encouraged by progress the agency has made to date and I support the CIO’s decision to
move forward with a new content management system to replace older applications that were not
FISMA compliant. Yet, much still needs to be done to provide basic assurances that information
and information systems are secure.
I want to thank OIT managers and staff for their assistance throughout our review. While we did
not always agree, I am confident that the CIO understands the extent of the work that lies ahead
and has a strategy to address it. I am available to answer any questions you have about the
report.
                                             Respectfully submitted,



                                             /Adam R. Trzeciak/
                                             Inspector General


Attachment

                                                 
                        Office of Inspector General 
                    Independent Evaluation Report 




            Review of Federal Maritime Commission
                           Implementation of the
Federal Information Security Management Act of 2002
                             For Fiscal Year 2009




                              November 18, 2009




                           RICHARD S. CARSON & ASSOCIATES, INC.

                                 http://www.carsoninc.com

4720 Montgomery Lane • Suite 800 • Bethesda, MD 20814-3444 • 301.656.4565 • Fax: 301.656.4806
FINAL                                              Independent Evaluation of FMC Information Security Program


                                                      TABLE OF CONTENTS 
1.  BACKGROUND ............................................................................................................ 1 
2.  OBJECTIVES ............................................................................................................... 1 
3.  SCOPE AND METHODOLOGY ........................................................................................ 1 
4.  DETAILED FINDINGS AND RECOMMENDATIONS .............................................................. 3 
      4.1 Agency Implementation of FISMA – FY 2008 Follow-up ............................................ 3 

           Notification of Finding # 1: Configuration Management Documentation is not
           adequate. ........................................................................................................................ 4 

           Notification of Finding # 2: The FMC does not fully comply with Security
           Requirements of OMB Memorandum M-07-16. ........................................................... 6 

      4.2 Agency Implementation of FISMA – FY 2009 Review................................................. 7 

           Notification of Finding # 3:  Deficiencies with the FMC Certification and
           Accreditation (C&A) packages for the FMC Network and SERVCON exist. ............. 8 

           Notification of Finding # 4: The FMC lacks an adequate Contingency Planning
           Program, to include policies, procedures, testing and documentation of testing.
           ....................................................................................................................................... 14 

           Notification of Finding # 5: The FMC does not have an official system inventory.
           ....................................................................................................................................... 15 

           Notification of Finding # 6: The FMC Plan of Action & Milestones process needs
           improvement. ............................................................................................................... 17 

           Notification of Finding # 7: The FMC Network Domain Administrator accounts are
           not appropriately segregated and monitored. .......................................................... 18 




                                                                        i                                             November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program



1. BACKGROUND

On December 17, 2002, the President signed into law the E-Government Act of 2002 (Public
Law 107-347), which includes Title III, the Federal Information Security Management Act of
2002 (FISMA). FISMA permanently reauthorized the framework laid out in the Government
Information Security Reform Act of 2000 (GISRA), which expired in November 2002, and
outlines information security management requirements for agencies, including the requirement
for annual review and independent assessment by agency inspectors general (IG). In addition,
FISMA includes provisions aimed at further strengthening the security of the federal
government’s information and information systems, such as the development of minimum
standards for agency systems. The annual assessments provide agencies with the information
needed to determine the effectiveness of overall security programs and to develop strategies and
best practices for improving information security.


2. OBJECTIVES

The objectives of the independent evaluation of the FMC information security program are as
follows:
   1. Evaluate Information System & Security Program: Assess compliance with FISMA and
      related information security policies, procedures, standards and guidelines using criteria
      and methodologies contained in the Government Accountability Office’s (GAO) Federal
      Information System Controls Audit Manual (FISCAM), National Institute of Standards
      and Technology (NIST) Information Processing Standards and Special Publications (SP)
      and OMB guidance. The scope of this task is the FMC Network and SERVCON.
   2. Perform Vulnerability Scan: Perform an external network scan from an address outside
      FMC to identify vulnerabilities associated with hardware and software installed facing
      the Internet (open ports, missing patches, default or missing passwords, etc.).
   3. Evaluate Responses to Prior Recommendations: Review management actions to
      implement OIG recommendations.
   4. Review Progress of Security Program: Perform an independent review of the FMC’s
      progress in implementing an effective information security program as it pertains to the
      tasks performed by the OIT contractors.

3. SCOPE AND METHODOLOGY

The scope of this independent evaluation of the FMC fiscal year (FY) 2009 information security
program included the following:
   •    Overall Security Program Implementation
   •    C&A Process and package reviews of the FMC Network and SERVCON


                                               1                             November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

   •    Configuration Management
   •    Contractor Oversight
   •    Contingency Planning and Testing
   •    POA&M Process
   •    Security Awareness Training
   •    Incident Response
To accomplish the review objectives, the OIG conducted interviews with Office of
Administration (OA) staff, including the Chief Information Officer (CIO); Office of Information
Technology (OIT) staff, including the Director of Information Technology and the Senior
Information System Security Officer (ISSO); the Office of the Secretary (OS), including the
Deputy Secretary; the Office of the General Counsel (OGC) staff, including the Senior Agency
Official for Privacy (SAOP); and other FMC personnel.
The team reviewed documentation provided by the FMC including C&A documentation, privacy
impact assessments and information security-related policies.
All analyses were performed in accordance with the following guidance:
   •    Federal Information Security Management Act of 2002 (Public Law 107-347), December
        2002
   •    Office of Management and Budget (OMB) Memorandum M-09-29, FY 2009 Reporting
        Instructions for the Federal Information Security Management Act and Agency Privacy
        Management, July 14, 2007
   •    OMB Circular A-130, Transmittal Memorandum No. 4, Management of Federal
        Information Resources, November 18, 2000
   •    Federal Information Processing Standards Publication (FIPS PUB) 199, Standards for
        Security Categorization of Federal Information and Information Systems, February 2004
   •    National Institute of Standards and Technology (NIST) Special Publication (SP) 800-18,
        Revision 1, Guide for Developing Security Plans for Information Technology Systems,
        February 2006
   •    NIST SP 800-53, Revision 2, Recommended Security Controls for Federal Information
        Systems, December 2007
   •    NIST SP 800-30, Risk Management Guide for Information Technology Systems, July
        2002
   •    NIST SP 800-34, Contingency Planning Guide for Information Technology Systems, June
        2002
   •    NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
        Information Systems, May 2004

                                               2                            November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

   •    Quality Standards for Inspection issued in 2003 by the President’s Council on Integrity
        and Efficiency
   •    President’s Council on Integrity and Efficiency and the Executive Council on Integrity
        and Efficiency FISMA Framework, September 2006
   •    FMC/OIG audit guidance
   •    FMC policies and procedures
The OIG performed fieldwork between June 8, 2009, and September 30, 2009, at the FMC
headquarters in Washington, DC.


4. DETAILED FINDINGS AND RECOMMENDATIONS

The FMC has taken steps to enhance its information security program and address issues
identified in the 2006, 2007 and 2008 FISMA reports, including the following:

   •    Creating Certification and Accreditation (C&A) packages for the FMC Network and
        SERVCON.
   •    Implementing and monitoring the annual computer security awareness program, to
        include providing an interactive online course with a required assessment for all
        employees at completion. All FMC staff and contractors (with the exception of one FMC
        employee on maternity leave whose account has been disabled) completed annual
        computer security awareness training by the end of FY 2009.
   •    Performing contractor system oversight to ensure the information systems meet
        government policies and regulations.
   •    Updating the Incident Response Policy to include breach-related procedures from OMB
        Memorandum M-07-16.
   •    Taking steps to implement a POA&M process.
   •    Appropriately sanitizing media to prevent disclosure of sensitive information when
        disposing or recycling media within the agency.

4.1 Agency Implementation of FISMA – FY 2008 Follow-up

During FY 2008 and 2009, the OIT hired an IT security consulting firm (the contractor) to
perform an inventory of its (OIT) information security program. The results of this inventory
were presented to OIT in the “Security Compliance Status Report.” OIT, with assistance from the
contractor, used the report results to restructure the agency’s information security program and
create C&A documentation for two of the FMC’s four information systems. FMC’s Contracting
Officer issued a stop work order after completion of the FMC Network and SERVCON C&A
packages because FORM-1 and FMC-18 were “not ready for C&A.” According to OIT, the
systems were developed prior to the installment of the current OIT management and policies. If
C&A activities were conducted on FORM-1 and FMC-18, management would have to absorb an

                                                3                            November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

exorbitant amount of risk; therefore, the CIO decided that the agency would look into other
options. The OIG notes that FORM-1 and FMC-18 continue to operate in a production
environment without any documented assessment and acceptance of risk to the organization;
however, the FMC plans to develop and implement an enterprise content management system
that would replace FORM-1 and FMC-18, complete with a C&A package. The FMC has selected
a contractor and is expected to complete the task by May 2010, in time for the OIG’s FY 2010
FISMA evaluation. Therefore, the focus for the FY 2009 FISMA evaluation is the completed
C&A packages for the FMC Network and SERVCON only.
The OIG is required to report on the security posture of the agency as part of its FISMA
evaluation. Recognizing that the contractor completed work on two of the four systems at the
FMC, the OIG must still opine on the program as it existed during the review period. In our
view, the agency has taken important steps by hiring a contractor to complete C&A packages for
two of the four systems at the FMC and to provide the template for a fully functional IT security
program. Without minimizing the importance of this foundation and acknowledging the effort
involved to bring it about, we also note that in FY 2009 many of the elements of a mature, robust
and comprehensive security program still did not exist at the FMC. However, we also note that
this condition is likely to change in FY 2010 with the implementation of the enterprise content
management system and remediation of the findings listed below.


Notification of Finding # 1: Configuration Management Documentation is not
adequate

According to NIST, it is important to document proposed or actual changes to information
systems and to subsequently determine the impact of those proposed or actual changes on the
system’s security. Information systems will typically be in a constant state of migration with
upgrades to hardware, software, or firmware and possible modifications to the surrounding
environment where the system resides. Documenting information system changes and assessing
the potential impact those changes may have on the security of the system is an essential aspect
of continuous monitoring and maintaining the security accreditation.
NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, dated August 2009, states that organizations shall:

   •    Develop, disseminate and revive/update at an organization-defined frequency formal
        documented configuration management policies and procedures that facilitate the
        implementation of associated configuration management controls.
   •    Develop, document and maintain a current baseline configuration of the information
        systems.
   •    Define, document and approve configuration changes to the system.
   •    Analyze changes to the information system to determine potential security impacts prior
        to change implementation.

   •    Define, document, approve and enforce physical and logical access restrictions associated

                                               4                             November 18, 2009
FINAL                               Independent Evaluation of FMC Information Security Program

        with changes to the information system.

        •   The organization shall establish, document and implement mandatory configuration
            settings for information technology products employed within the information system
            using organization-defined security configuration checklists that reflect the most
            restrictive mode consistent with operational requirements.
        •   Identify, document and approve exceptions from the mandatory configuration settings
            for individual components within the information system based on explicit
            operational requirements.
        •   Monitor and control changes to the configuration settings in accordance with
            organizational policies and procedures.

   •    Configure the information system to provide only essential capabilities and specifically
        prohibit or restrict the use of organization-defined prohibited or restricted functions,
        ports, protocols and/or services.
NIST SP 800-70, Security Configuration Checklists Program for IT Products Guidance for
Checklists Users and Developers, dated May 2006, provides approved security configuration
checklists for a variety of operating systems, Web browsers, firewalls, antivirus software and
productivity tools.
Our review determined that the FMC has created a Configuration Management Policy,
implemented the Federal Desktop Core Configuration (FDCC) and created a “server build
checklist;” however, a baseline configuration for the FMC Network and deviations from the
baselines are not documented.
Additionally, the SERVCON Technical Architecture document did not address security controls
in sufficient detail to meet NIST guidelines. Specifically, more information should be provided
on what security baselines should be used, frequency of security baseline updates and steps to
ensure security baselines are being followed. The following sections were found to lack
sufficient detail:

   •    Portal requirements table

   •    Cron and scheduled tasks table

   •    User roles and groups tables

   •    Firewall configuration and port allocation table

   •    Document sign off
During the vulnerability scans performed (as described in Section 4.3 below), two public devices
were identified in the FMC.gov public subnet of which the FMC was initially unaware. Upon
further investigation, it was noted that the devices were a test machine and router outside the
firewall. Nevertheless, the OIG believes that proper documented configuration management and
continuous monitoring would have identified the devices.

                                                  5                           November 18, 2009
FINAL                               Independent Evaluation of FMC Information Security Program

The FMC hired a contractor during FY 2008 and FY 2009 to create its IT security program;
however, the Contracting Officer issued a stop work order after completion of the FMC Network
and SERVCON C&A documentation. Through inspection of the documentation and interviews
with OIT staff, the OIG determined that OIT has not allocated the necessary resources to create a
fully functional configuration management program. The effect of not having completed a
current and detailed configuration management program is that baseline security settings do not
exist for the FMC systems. Additionally, without a baseline and documented deviations, it is
difficult to determine whether security settings are in place. This could make the systems
vulnerable to hacking, computer viruses and other exploits.
Recommendations
We recommend OIT:
1. Complete the SERVCON configuration management documentation to include missing
   sections (identified above). Additionally, confirm that the FMC Network and SERVCON
   configuration management plans address the following sections in accordance with NIST SP
   800-53, Revision 3:

   •    Security control, port and firewall settings
   •    Allowable and non-allowable services
   •    Hardware and software requirements
   •    Patches and service packs
   •    System and application baselines and documentation of the deviations from the baselines

2. Implement the NIST National Checklist Program and use a Security Content Automation
   Protocol (SCAP) scanner to document deviations from the checklists.


Notification of Finding # 2: The FMC does not fully comply with Security
Requirements of OMB Memorandum M-07-16.

OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, requires agencies to encrypt all data on mobile
computers/devices carrying agency data; require two-factor remote access authentication; use a
30-minute inactivity timeout function for remote access; log and verify all computer-readable
data extracts from databases holding sensitive information; and require all individuals with
authorized access to Personally Identifiable Information (PII) and their supervisors to sign, at
least annually, a document clearly describing their responsibilities.
Through observation of configuration settings, interviews and review of documentation, the OIG
noted the following weaknesses, which were also identified in the FY 2008 FISMA review:




                                                 6                            November 18, 2009
FINAL                                Independent Evaluation of FMC Information Security Program

1. Encryption is not implemented on mobile computers and devices carrying agency data.
      •   OIT reported that, “due to the lack of sensitive information on these systems, it is not
          anticipated that this recommendation will be implemented.” However, the OIG found no
          evidence that compensating controls, the residual risk and management sign-off of
          acceptance of this weakness, have been documented. Additionally, thumb drives that
          were distributed to field office representatives are not FIPS 140-2 compliant 1 . Therefore,
          the prior year recommendation is still open.

2. Network Administrator remote-access connection does not implement a 30-minute inactivity
   timeout.

      •   Concerning follow-up in FY 2009 on this weakness, the agency has stated that “the
          Network Administrator’s remote access connection cannot be set to time out as there is
          no setting for this function, which was initiated on 12/15/04. Therefore, corrective action
          under this recommendation is considered complete.” Again, the OIG noted that
          compensating controls, the residual risk and management sign-off of acceptance of this
          weakness have not been documented; therefore, the recommendation is still open.
The FMC informed the OIG that the conditions exist because the resources were not available to
implement new remote access hardware/software at the current time, but plans were made to
upgrade the equipment in an upcoming hardware refresh. The OIG noted that FIPS 140-2
compliant thumb drives were purchased in prior years. However, after speaking with FMC’s area
representatives, it appeared they were not being used. Without implementing the technical
security considerations of OMB Memorandum M-07-16, the FMC cannot ensure OMB
compliance and privacy data may be at risk for unauthorized exposure.
Recommendations
We recommend OIT:
3. Evaluate FMC mobile needs and implement FIPS 140-2 encryption on mobile computers and
   portable devices carrying agency data.
4. Configure the Network Administrator remote-access connection to require a 30-minute
   inactivity timeout. If unable to complete, document the compensating controls, residual risk
   and management acceptance of risk.
4.2




1
  Federal Information Processing Standards Publication (FIPS) 140-2 defines the security
requirements for cryptographic modules, specifically, the levels and types of encryption to be
used when processing information on Federal Government information systems.


                                                   7                              November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

    Agency Implementation of FISMA – FY 2009 Review
OMB Memorandum, M-09-29, FY 2009 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, contained slightly modified FISMA
reporting guidance for FY 2009. The OIG evaluated the security program based upon these
changes and new requirements. As a result of these evaluations and review of the FMC Network
and SERVCON C&A packages, additional vulnerabilities were noted.

Notification of Finding # 3: Deficiencies with the FMC Certification and Accreditation
(C&A) packages for the FMC Network and SERVCON exist.

Memorandum M-09-29, Memorandum for Heads of Executive Departments and Agencies, states
that C&A is required for all federal information systems. Section 3544(b)(3) of FISMA discusses
“subordinate plans for providing adequate information security for networks, facilities, and
systems or groups of information systems” and does not distinguish between major or other
applications. Smaller “systems” and “applications” may be included as part of the assessment of
a larger system, as allowable in NIST guidance, provided an appropriate risk assessment is
completed and security controls are implemented (OMB M-09-29, p. 11).
Memorandum M-04-04, Memorandum to the Heads of All Departments and Agencies, states that
agencies are required to review new and existing electronic transactions to ensure that
authentication processes provide the appropriate level of assurance. It establishes and describes
four levels of identity assurance for electronic transactions requiring authentication. Assurance
levels also provide a basis for assessing Credential Service Providers (CSP) on behalf of federal
agencies. Memorandum M-04-04 assists agencies in identifying their e-government
authentication needs. Agency program officials bear the primary responsibility to identify
assurance levels and strategies for providing them. This responsibility extends to electronic
authentication systems.
Agencies shall determine assurance levels using the following steps, described in Section 2.3 of
M-04-04:
   1. Conduct a risk assessment of the e-government system.
   2. Map identified risks to the applicable assurance level.
   3. Select technology based on e-authentication technical guidance.
   4. Validate that the implemented system has achieved the required assurance level.
   5. Periodically reassess the system to determine technology refresh requirements.
NIST Special Publication (SP) 800-37, Recommended Security Controls for Federal Information
Systems, May 2004, states that a C&A package shall contain an approved security plan, a
security assessment report (ST&E) and a Plan of Action and Milestones (POA&M) (SP-800-37,
p. 21). Additionally, SP 800-37 states that the assessment of risk and the development of system
security plans are two important activities in an agency’s information security program that
directly support security accreditation and are required by FISMA and OMB Circular A-130,

                                               8                             November 18, 2009
FINAL                                 Independent Evaluation of FMC Information Security Program

Appendix III (SP 800-37, p. 4). Documentation should be produced that describes the process
employed and the results obtained (SP 800-37, p. 5). SP 800-37 also states that system security
plans can include as references or attachments other important security-related documents, such
as risk assessments, contingency plans, privacy impact assessments, incident response plans,
security awareness and training plans, information system rules of behavior, configuration
management plans, security configuration checklists, privacy impact assessments and system
interconnection agreements (SP 80-37, pp. 5, 21).
The OMB Guidance M-06-20, Memorandum for Heads of Executive Departments and Agencies,
states that for all non-national security programs and systems, agencies must follow NIST
standards and guidance (OMB, M-06-20, p. 2).
NIST SP 800-18, Revision 1, Guide for Developing Security Plans for Federal Information
Systems, dated February 2006, requires the use of NIST SP 800-53 security controls in the
development of the security plan (Section 3.14, pp. 24 - 25). Once the security controls are
selected and tailored and the common controls identified, agencies are to describe each control.
The description should contain: (i) the security control title; (ii) how the security control is being
implemented or is planned to be implemented; (iii) any scoping guidance that has been applied
and what type of consideration; and (iv) indicate if the security control is a common control and
who is responsible for its implementation (SP 800-18 Section 3.1.4, pp 24 - 25).
NIST SP 800-30, Risk Management Guide for Information Technology Systems, dated July 2002,
differentiates security testing and evaluation from automated vulnerability scanning and penetration
testing. The purpose of system security testing is to test the effectiveness of the security controls of a
system as they have been applied in an operational environment. In contrast, the potential vulnerabilities
identified by automated scanning may not represent real vulnerabilities in the context of the system
environment. Similarly, penetration testing is used to test the system from the viewpoint of a threat-source
and to identify potential failures in the IT system protection schemes (Section 3.3.2, pp. 17 - 18).

NIST SP 800-34, Contingency Planning for Information Technology Systems, dated June 2002,
states that recovery strategies provide a means to restore IT operations quickly and effectively
following a service disruption. The strategies should address disruption impacts and allowable
outage times identified in the Business Impact Assessment (BIA). Several alternatives should be
considered when developing the strategy, including cost, allowable outage time, security and
integration with larger organization-level contingency plans (Section 3.1, p. 19).
Federal Information Processing Standards Publication 199 (FIPS PUB 199), Standards for
Security Categorization of Federal Information Systems, February 2004, provides standards for
categorizing information and information systems. Security categorization standards for
information and information systems provide a common framework and understanding for
expressing security that promotes: (i) effective management and oversight of information
security programs, including the coordination of information security efforts throughout the
civilian, national security, emergency preparedness, homeland security and law enforcement
communities; and (ii) consistent reporting to the OMB and Congress on the adequacy and
effectiveness of information security policies, procedures and practices. Subsequent NIST




                                                    9                                November 18, 2009
FINAL                              Independent Evaluation of FMC Information Security Program

standards and guidelines will address the second and third tasks cited (Section 1, p. 1). Agency
officials shall use the security categorizations described in FIPS PUB 199 whenever there is a
federal requirement to provide such a categorization of information or information systems.
Additional security designators may be developed and used at agency discretion. State, local,
tribal governments, as well as private sector organizations comprising the critical infrastructure
of the United States may consider the use of these standards as appropriate (Section 2, p. 1).
NIST SP 800-60, Guide for Mapping Types of Information Systems to Security Categories,
Volumes I & II, August 2008, was developed to help agencies consistently map security impact
levels to types of: (i) information (e.g., privacy, medical, proprietary, financial, contractor
sensitive, trade secret, investigation); and (ii) information systems (e.g., mission-critical,
mission-support, administrative). This guideline applies to all federal information systems other
than national security systems. National security systems store, process, or communicate national
security information (Section 1.1, p. 1).
C&A Packages
The evaluation team reviewed packages for the FMC Network and SERVCON to determine if
the packages adhere to NIST SP 800-37 guidance. A review of the individual documents of each
package was then conducted to evaluate their compliance with other relevant NIST and OMB
guidance. The C&A packages contained a privacy impact assessment, security plan, risk
assessment and certification and accreditation statements; Plan of Action and Milestones
(POA&M), FIPS 199 system categorization, contingency plan and system test and evaluation
plan and report; and a configuration management plan (SERVCON only) and self-assessment.
Security plans and certification and accreditation forms for these systems were provided
separately.
The review team concludes that the FMC Network and SERVCON packages were generally
completed using NIST guidance. However we also identified minor instances of noncompliance
with NIST that could weaken the overall assurances of what the packages are intended to
provide. These deficiencies are detailed in the following sections:
Security Plans
While the FMC Network and SERVCON security plans were generally compliant with NIST SP
800-18 guidance, review of the security plans found that sections of the security plans were
either not completed or completed incorrectly. For example:

   •    The security plans (and C&A packages) do not contain unique identifiers for each
        system.
   •    Certifying Agent (CA) and Designated Approving Authority (DAA) titles are not clearly
        identified as required by NIST SP 800-37.
   •    E-mail addresses for key personnel are not provided.
   •    Minor applications are not identified, nor is there a statement indicating that there are no

                                                 10                             November 18, 2009
FINAL                              Independent Evaluation of FMC Information Security Program

        minor applications associated with the General Support System (FMC Network).
   •    A list of user organizations was not provided. (This may not be an issue based upon the
        size of the FMC, but there was no clear discussion of the user community.) Presently, this
        section and related table identify switches, e-mail systems, firewalls and gateways used
        by the applications.
   •    There is no discussion of interconnections between systems. Specifically, there should be
        a list of systems that share data between applications.
   •    Security plans for systems processing privacy act information did not include the number
        and title of the system(s) of record and whether the system(s) are used for computer
        matching activities.
   •    Common controls were not specifically identified, although common controls were
        identified in the risk assessments.
   •    Signature and date fields were blank on the approval sheets in the copies of the security
        plans provided. Additionally, the names of personnel listed as the signatories did not
        match the individuals who signed the C&A statements.


Risk Assessments

Review of the FMC Network and SERVCON risk assessments found that the risk assessments
were generally based upon SP 800-30 and addressed most of the areas covered by the guidance,
including the risk assessment approach, system security categorization, threats and a detailed
analysis. The FMC Network risk assessment was completed on May 26, 2009, and the
SERVCON risk assessment was completed on May 27, 2009. However, the following
weaknesses were identified:

   •    Accreditation boundaries for the risk assessment, which define the scope of the C&A
        packages, were not clearly defined.
   •    System and data owners were not clearly identified.
   •    Parts of the documents were incomplete. Specifically, the System Management Roles
        table and the System User Group and Access tables are incomplete in each risk
        assessment. These tables list the roles and access levels for IT and other user groups in an
        effort to keep them appropriately segregated.


E-Authentication Risk Assessments

Systems requiring e-authentication have not been identified, and e-authentication risk
assessments have not been conducted on information technology systems. Additionally, due to a
lack of documentation, we could not determine whether the agency has validated whether its
systems have operationally achieved the required assurance level as defined in NIST Special
Publication 800-63.

                                                 11                            November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

C&A Letters

Review of the C&A memoranda dated June 4, 2009, found that certification and authorization to
operate statements for the FMC Network and SERVCON were contained in each document.
However, the review found the following weaknesses:

   •    The CIO is not clearly identified as the Designated Approving Authority.
   •    The ISSO signed the certification statement as the “Authorizing Official” instead of the
        “Certifying Agent,” which would appear to be a conflict of interest.
   •    The statement does not mention the contractors who operated as an independent
        certification agent, under the role of the ISSO, as required by NIST SP 800-53 for
        “moderate” and “high” categorized systems.


Privacy Impact Assessment (PIA)

Review of the C&A packages provided by the FMC confirmed PIA assessments were completed
for the FMC Network and SERVCON. Review of the PIAs found that they described the PIA
process, identified who is responsible for completing the PIA and when a PIA is required, and
described the Privacy Act requirements. Review of the assessment confirmed that personal
identifiers collected by each system were identified and addressed the PIA requirements. On the
other hand, we noted that the PIA documents did not contain the following required information:

   •    System of Records Number (SORN)

   •    OMB unique system identifier

   •    System Code
We also noted that the PIAs were not signed, and Section 3 of the PIA, Determination by the
FMC Privacy Advocate, is incomplete. There is a section title, but no statement or signature from
the FMC Privacy Advocate to indicate whether the system PIAs have been approved.


FIPS 199 Security Categorization

The security categorizations were not consistent across the FMC Network and SERVCON
documents. Specifically, the security categorizations for the FMC Network and SERVCON did
not match the security categorizations listed in the POA&Ms.


Contingency Plans

Contingency plans were developed for the FMC Network (dated March 19, 2009) and
SERVCON (dated March 18, 2009). Review of the completed FMC Network and SERVCON
contingency plans revealed that:


                                                12                            November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

   •    Team leads and alternates are not identified for the FMC Network contingency plan.
   •    The phone trees for the contingency plans are incomplete.
   •    Contact information for team leads and team members is incomplete.
   •    The contingency plans did not include service level agreements.
   •    A Business/Mission Impact Analysis has not been completed for each system.
Through inspection of the documentation and interviews with staff, it appears that the contractor
completed the C&A documentation to a satisfactory level. However, the documentation does not
fully comply with NIST guidance. This outcome is likely the result of inadequate oversight of
the contractor’s final deliverables. Without developing comprehensive C&A packages for the
FMC Network and SERVCON, the FMC is unable to identify all of the security vulnerabilities
associated with operating its systems. Additionally, without the appropriate personnel formally
accepting the risks of running these systems in the production environment, the FMC data and
systems may be vulnerable to potential unknown threats and will not be adequately safeguarded
to prevent unauthorized use, disclosure and modification.
Recommendations
We recommend OIT:

5. Conduct security categorizations on the FMC Network and SERVCON in accordance with
   FIPS 199 and NIST SP 800-60.
6. Clearly identify the Certifying Agency, Designated Approving Authority and system owner
   in the FMC Network and SERVCON security plans and C&A documentation in accordance
   with NIST SP 800-37.
7. Conduct complete risk assessments on the FMC Network and SERVCON. Define
   accreditation boundaries. Ensure that risk assessments are complete in accordance with NIST
   SP 800-30.
8. Complete security plans for the FMC Network and SERVCON in accordance with NIST SP
   800-18.
9. Standardize security categorizations across the FMC and SERVCON C&A documents.

10. Develop contingency plans for the FMC Network and SERVCON in accordance with NIST
   SP 800-34 and NIST SP 800-53.
11. Complete the FMC Network and SERVCON Authorization to Operate letters with the
    correct information and titles.




                                               13                            November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program


Notification of Finding # 4: The FMC lacks an adequate Contingency Planning
Program, to include policies, procedures, testing and documentation of testing.
According to NIST SP 800-34, Contingency Planning for Information Technology Systems,
dated June 2002, recovery strategies provide a means to restore IT operations quickly and
effectively following a service disruption. The strategies should address disruption impacts and
allowable outage times identified in the Business Impact Analysis. Several alternatives should be
considered when developing the strategy, including cost, allowable outage time, security and
integration with larger organization-level contingency plans.
The selected recovery strategy should address the potential impacts identified in the BIA and
should be integrated into the system architecture during the design and implementation phases of
the system life cycle. The strategy should include a combination of methods that complement
one another to provide recovery capability over the full spectrum of incidents. A wide variety of
recovery approaches may be considered; the appropriate choice depends on the incident, type of
system and its operational requirements. Specific recovery methods further described in Section
3.4.2 should be considered and may include commercial contracts with cold-, warm-, or hot-site
vendors, mobile sites, mirrored sites, reciprocal agreements with internal or external
organizations and service level agreements (SLAs) with the equipment vendors. In addition,
technologies such as Redundant Arrays of Independent Disks (RAID), automatic fail-over,
uninterruptible power supply (UPS) and mirrored systems should be considered when
developing a system recovery strategy.
NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, dated August 2009, states that organizations shall provide for the recovery
and reconstitution of the information system to a known state after a disruption, compromise or
failure (SP 800-53, CP-10).
The FMC took part in the Federal Emergency Management Agency’s (FEMA) Eagle Horizon
2009 continuity mandatory exercise for all federal executive branch departments and agencies.
This test evaluated the accessibility and functionality of the FMC-18, e-mail, Registered Person
Index (RPI), CADRS’ database, MSWord and Adobe in the event of a disruption. However,
based upon review of the contingency plans and documentation provided, the following
weaknesses were noted:

   •    The FMC does not have documented contingency planning policies and procedures for
        identifying the frequency and types of tests and preparing and updating of contingency
        documentation.

   •    The SERVCON contingency plan was not tested.

   •    The FMC Network contingency plan test (Eagle Horizon 2009) and results
        documentation does not adequately test or document the FMC Network and SERVCON
        contingency plans. This test focused on the FMC’s e-mail, Adobe, Internet access, FMC-
        18, Content Management System (CMS), RPI and CADRS’ database. No information
        was available to describe the scenario that was being tested. Testing appeared to
        concentrate on determining if the applications were working and if e-mail could be sent

                                               14                            November 18, 2009
FINAL                              Independent Evaluation of FMC Information Security Program

        or the Internet could be accessed. Some test results were inconclusive (e-mail was sent
        out requesting replies from the recipient, but no responses were received); however, no
        recommendations or lessons learned were identified.
The FMC has not allocated the necessary resources to create a fully functional contingency
planning program, to include appropriate testing and documentation of the testing. Delays,
confusion and the potential introduction of vulnerabilities when recovering from a system failure
are likely when contingency plans are incomplete and have not been tested. Not testing
contingency plans could result in errors or incorrect steps being embedded in the security plan,
which could further hinder the recovery process.

Recommendations

We recommend OIT:
12. Develop a contingency plan policy and procedures that address the creation, review, testing
    and maintenance of contingency plans.
13. Test contingency plans and document results in accordance with NIST SP 800-34 and NIST
    SP 800-53.

Notification of Finding # 5: The FMC does not have an official system inventory.

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, dated August 2009, control CM-8 requires that organizations develop,
document and maintain an inventory of information system components that:

   •    Accurately reflects the current information system.
   •    Is consistent with the authorization boundary of the information system.
   •    Is at the level of granularity deemed necessary for tracking and reporting.
   •    Includes organization-defined information deemed necessary to achieve effective
        property accountability.
   •    Is available for review and audit by designated organizational officials.
During FY 2009, OIT hired contractors to create a security program and to certify and accredit
the FMC’s systems. The contractors distributed inventory forms to all the FMC departments to
identify the systems in operation. The returned forms became the “FMC inventory.” In addition
to the FMC Network and SERVCON systems for which the contractor created C&A packages,
the forms were returned from each of the FMC departments and identified the following systems:

   •    BEAA

   •    BOE Index

   •    e-agreements

                                                 15                            November 18, 2009
FINAL                              Independent Evaluation of FMC Information Security Program

   •    Form 1

   •    Form 18 (FMC-18)

   •    OIG

   •    PIERS

   •    SERVCON (External)

   •    Training
A complete inventory, in addition to simply identifying systems, must contain the following:

   •    IT System ID

   •    IT System interfaces

   •    IT System boundary

   •    IT System Operability and Agreements

   •    IT System and Data Sensitivity

   •    Overall IT System Sensitivity Rating

   •    IT System Sensitivity Rating

   •    Any indication as to whether the system is a GSS, major application or minor application
The OIG notes that other federal agencies annually query their business units on the IT systems
they are using or plan to use in the future, as well as identify IT systems that are used outside of
the agency. This information is then compiled by the IT department into an official documented
inventory.
Through inspection of the documentation and interviews with OIT staff, it was determined that
an inventory process had not been implemented at the FMC and that OIT staff was relying on
documentation produced and distributed by the contractor. Further, this “inventory” was not
vetted for accuracy and completeness by OIT or its contractor. Without documenting and
implementing an effective inventory process, the FMC management may not be aware of all the
FMC systems in operation and, therefore, cannot fully realize the risk in the IT environment.
Recommendation
We recommend OIT:
14. Complete and maintain an official, documented system inventory of all the FMC systems and
    interfaces.



                                                 16                             November 18, 2009
FINAL                              Independent Evaluation of FMC Information Security Program

Notification of Finding # 6: The FMC Plan of Action & Milestones process needs
improvement.

In Memorandum M-04-25, Memorandum for Heads of Executive Departments and Agencies,
OMB requires agencies to prepare POA&Ms for all programs and systems where an IT security
weakness has been found. The guidance directs CIOs and agency program officials to develop,
implement and manage POA&Ms for all programs and systems they operate and control (e.g.,
for program officials this includes all systems that support their operations and assets).
Additionally, program officials shall regularly (at least quarterly and at the direction of the CIO)
update the agency CIO on their progress to enable the CIO to monitor agency-wide remediation
efforts and provide the agency’s quarterly update to OMB. M-04-25 also provides instructions on
how POA&Ms should be structured and maintained (M-04-25, pp. 14-15).
Based on the documents reviewed, the FMC developed POA&Ms for the FMC Network and
SERVCON. The POA&M documents contain the required elements as identified in OMB
guidance. However, review of the POA&Ms noted the following weaknesses:

   •    The POA&M process may not be implemented agency-wide.
   •    The POA&M process may not be fully utilized.
Review of the FMC Network and SERVCON POA&Ms found that POA&M action items
originated from various sources, such as system security plan findings, the Office of Equal
Employment Opportunity, OIG, Office of Operations, Office of Administration and the Office of
Financial Management. However, POA&Ms were not provided for all of the FMC applications.
The POA&M process has not been implemented agency-wide and may not incorporate all
known IT security weaknesses associated with information systems used or operated by the
agency or by a contractor of the agency or other organization on behalf of the agency.
The OIG found that the POA&Ms for the FMC Network and SERVCON were not completed
properly and, therefore, the process may not be fully utilized. Review of the POA&Ms noted the
following weaknesses:

   •    Sensitivity/criticality levels for the FMC Network and SERVCON systems did not match
        sensitivity/criticality levels reported in FIPS 199 for the FMC Network and SERVCON.
        The FIPS 199 security categorization for the FMC Network was reported as
        High/High/High (corresponding to levels for confidentiality, integrity and availability
        categories for each IT system, respectively); while, the POA&M identified it as
        High/Moderate/High. The FIPS 199 security categorization for SERVCON was identified
        as High/Moderate/High; while, the security categorization listed in the POA&M was
        marked as Moderate/Moderate/Moderate in the SERVCON POA&M. Based on these
        categorizations, the agency sets it controls and security of the information. Controls for
        moderate systems are not as stringent as those for high risk systems.

   •    ID numbers were not assigned to POA&M items for the FMC Network and SERVCON.

   •    The sensitivity of the POA&M document was not printed on the document.


                                                17                             November 18, 2009
FINAL                              Independent Evaluation of FMC Information Security Program

   •    Resources required to complete the task were not identified.

   •    Milestones with completion dates were not identified.
Through inspection of the documentation and interviews with OIT staff, the OIG determined that
OIT staff have utilized the FMC Network and SERVCON POA&Ms, but have not allocated
sufficient resources to create an agency-wide POA&M process (i.e., a process that tracks
vulnerabilities from various sources within the agency). Without an effective POA&M process,
the agency may not be able to easily identify and prioritize weaknesses or track the status of the
corrective actions being taken to resolve deficiencies identified. This could lead to vulnerabilities
not being corrected and the continued exposure of the FMC systems to higher levels of risk.


Recommendations

We recommend OIT –
15. Develop an agency-wide POA&M process to include all systems that meet OMB
    requirements.
16. Complete the POA&M spreadsheets in accordance with current OMB and NIST guidance
    and maintain evidence of the closure of each item.


Notification of Finding # 7: The FMC Network Domain Administrator accounts are
not appropriately segregated and monitored.

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, dated August 2009, recommends that organizations shall:

   •    Establish and administer privileged user accounts in accordance with a role-based access
        scheme that: (a) organizes information system and network privileges into roles; and (b)
        tracks and monitors privileged role assignments.

   •    Employ the concept of least privilege, allowing only authorized accesses for users (and
        processes acting on behalf of users) that are necessary to accomplish assigned tasks in
        accordance with organizational missions and business functions.

   •    Review and analyze information system audit records at an organization-defined
        frequency for indications of inappropriate or unusual activity, and report findings to
        designated organizational officials.
Six members of the OIT staff, including one contractor and the ISSO, have the FMC Network
Domain Administrator permissions on their user accounts. Additionally, a formal process for
monitoring user and privileged accounts, including the Domain Administrator account, is not
implemented.
The FMC informed the OIG that the conditions exist because the size of the OIT requires
multiple individuals to make changes to the FMC Network on a daily basis. The FMC also

                                                 18                             November 18, 2009
FINAL                             Independent Evaluation of FMC Information Security Program

informed the OIG that informal monitoring by the OIT Director is performed and, therefore, a
formal monitoring process is not necessary. The OIG is not convinced that monitoring is not
needed based on OIT’s rationale. Without appropriately limiting the access rights and monitoring
usage of the FMC Network account(s), authorized and unauthorized changes to the network may
occur without the necessary accountability, which may affect the overall confidentiality, integrity
and availability of the system.

Recommendations

We recommend OIT:
17. Change the password of the FMC Network Domain Administrator account and physically
    secure the password so that it is only available for authorized and documented network
    changes and/or emergencies.
18. Restrict the FMC Network Domain Administrator privileges to OIT staff whose job functions
    require the access privileges; remove access for the ISSO to maintain segregation of duties.
19. Document and implement policies and procedures (and if determined necessary hardware
    and/or software) for the ISSO to monitor the actions of all the FMC Network users,
    privileged users (super users) and domain administrator accounts.

4.3 Vulnerability Scan

The OIG performed a vulnerability assessment on the FMC Network from external sources on
October 6, 2009. The review was conducted using NIST SP 800-115, Technical Guide to
Information Security Testing and Assessment, September 2008, as methodology. It was noted
that no high-risk vulnerabilities were discovered. Completed scan results were provided to OIT
management immediately after our tests were concluded.




                                                19                            November 18, 2009
UNITED STATES GOVERNMENT                              FEDERAL MARITIME COMMISSION

       Memorandum

TO            : Inspector General                              DATE: January 26, 2010
THROUGH : /Director, Office of Administration/
FROM          : CIO
SUBJECT       : FISMA Audit 2009
This is in response to your recently provided FISMA audit report.
Notification of Finding # 1: Configuration Management Documentation is not
adequate
Recommendation(s)

We recommend OIT:

1. Complete the SERVCON configuration management documentation to include
   missing sections (identified above). Additionally, confirm that the FMC Network and
   SERVCON configuration management plans address the following sections in
   accordance with NIST SP 800-53, Revision 3:


     • Security control, port and firewall settings

     • Allowable and non-allowable services

     • Hardware and software requirements

     • Patches and service packs

     • System and application baseline and documentation of the deviation from the
       baselines

Management’s Response
FMC acknowledges finding # 1 recommendation 1; the SERVCON Technical
Architecture document did not address security controls in sufficient detail. Specifically,
more information should be provided regarding security control, port and firewall
settings, allowable and non-allowable services, hardware and software requirements,
patches and service packs, on what security baselines should be used, frequency of
security baseline updates, and steps to ensure security baselines are being followed.
FMC will follow the recommendation of the Office of the Inspector General by ensuring
that configuration management plans address the above referenced sections in
accordance with NIST SP 800-53, Revision 3.
2. Implement the NIST National Checklist Program and use a Security Content
   Automation Protocol (SCAP) scanner to document deviations from the checklists.

Management’s Response
FMC will follow the recommendation of the Office of the Inspector General in regards to
the implementation of the NIST National Checklist Program and the utilization of a
Security Content Automation Protocol (SCAP) scanner to document deviations from the
checklists.


Notification of Finding # 2: The FMC does not fully comply with Security
Requirements of OMB Memorandum M-07-16
Recommendation(s)
We recommend OIT:
3. Evaluate FMC mobile needs and implement FIPS 140-2 encryption on mobile
   computers and portable devices carrying agency data.
Management’s Response
FMC acknowledges finding # 2 recommendation 3. FMC is in the process of identifying
a FIPS 140-2 compliant encryption solution to implement on mobile computers and
portable devices carrying agency data.


4. Configure the Network Administrator remote-access connection to require a 30-
   minute inactivity timeout. If unable to complete, document the compensating
   controls, residual risk and management acceptance of risk.
Management’s Response
FMC acknowledges finding # 2 recommendation 4. The FMC has stated that the
Network Administrator’s remote access connection cannot be set to time out, as there is
no setting for this function. FMC will document the compensating controls, residual
risk, and provide management sign off of acceptance of this risk until corrected.




                                          21
Notification of Finding # 3: Deficiencies with FMC Certification and Accreditation
(C&A) packages for FMC Network and SERVCON exist
Recommendation(s)
We recommend OIT:
5. Conduct security categorizations on the FMC Network and SERVCON in
   accordance with FIPS 199 and NIST SP 800-60.
Management’s Response
Security categorizations have been conducted on the FMC GSS and SERVCON
systems in accordance with FIPS 199 and NIST SP 800-60.


6. Clearly identify the Certifying Agency, Designated Approving Authority, and system
   owner in the FMC Network and SERVCON security plans and C&A documentation
   in accordance with NIST SP 800-37.
Management’s Response
The C&A letters have been corrected to clearly identify the Certifying Agent, Designated
Approving Authority, and System Owner in the security plans and C&A documentation
in accordance with NIST SP 800-37.


7. Conduct complete risk assessments on the FMC Network and SERVCON. Define
   accreditation boundaries. Ensure that risk assessments are complete in accordance
   with NIST SP 800-30.
Management’s Response
Risk Assessments that define the accreditation boundaries have been completed for the
FMC GSS and SERVCON systems in accordance with NIST SP 800-30.


8. Complete security plans for the FMC Network and SERVCON in accordance with
   NIST SP 800-18.
Management ‘s Response
Security plans have been completed for the FMC GSS and SERVCON systems in
accordance with NIST SP 800-18.




                                          22
9. Standardize security categorizations across the FMC and SERVCON C&A
   documents.
Management’s Response
Security categorizations have been standardized across all FMC GSS and SERVCON
C&A document.


10. Develop contingency plans for the FMC Network and SERVCON in accordance with
    NIST SP 800-34 and NIST SP 800-53.
Management’s Response
As part of the certification and accreditation process performed by IES, a contingency
plan was developed for both the GSS and SERVCON systems that identify testing
procedures, frequency of testing, and the types of test to be performed. FMC will
conduct a contingency plan test in the second quarter of FY 2010 using the contingency
plan test process developed by IES for the FMC GSS and SERVCON systems and
document the results in accordance with NIST SP 800-34 and NIST SP 800-53.


11. Complete the FMC Network and SERVCON Authorization to Operate letters with the
    correct information and titles.
Management’s Response
      Completed 10/16/09


Notification of Finding # 4: FMC lacks an adequate Contingency Planning
Program, to include policies, procedures, testing, and documentation of testing.
Recommendation(s)
We recommend OIT –

12. Develop a contingency plan policy and procedures that address the creation, review,
    testing, and maintenance of contingency plans.
Management’s Response
FMC does not have documented contingency planning policies and procedures for
identifying the frequency of testing, types of testing, preparing and updating of
contingency documentation. The FMC has recently completed migrating from its
previous COOP site (Rack Space) to its new COOP site (Recovery Point) from which
FMC participated in the Eagle Horizon contingency plan test. As part of the certification
and accreditation process performed by IES, a contingency plan was developed for both


                                           23
the GSS and SERVCON systems that identify testing procedures, frequency of testing,
and the types of test to be performed.


13. Test contingency plans and document results in accordance with NIST SP 800-34
    and NIST SP 800-53.
Management’s Response
The FMC Network contingency plan test (Eagle Horizon 2009) and results
documentation does not adequately test or document the FMC Network and SERVCON
contingency plans. FMC will conduct a contingency plan test in the second quarter of
FY 2010 using the contingency plan test process developed by IES for the FMC GSS
and SERVCON systems and document the results in accordance with NIST SP 800-34
and NIST SP 800-53.


Notification of Finding # 5: FMC does not have an official system inventory.
Recommendation(s)
We recommend OIT –
14. Complete and maintain an official system inventory of all FMC systems and
    interfaces.

Management’s Response
The FMC has inventoried the GSS and SERVCON systems using a process that
conforms to NIST SP 800-53 rev 3, recommended Security Controls for Federal
Information Systems and Organizations control CM-8 as required during its
recertification of SERVCON in FY 2009.


Notification of Finding # 6: The FMC Plan of Action & Milestones process needs
improvement.
Recommendation(s)
We recommend OIT –
15. Develop an agency-wide POA&M process to include all systems, that meet OMB
    requirements.
Management’s Response
An agency wide POA&M process that meets OMB requirements has been implemented
in regards to FMC’s GSS and SERVCON systems.



                                         24
16. Complete the POA&M spreadsheets in accordance with current OMB and NIST
    guidance and maintain evidence of the closure of each item.
Management’s Response
The FMC acknowledges finding # 6 recommendation 16. The POA&M spreadsheets
have been completed in accordance with current OMB and NIST guidance. The
sensitivity/criticality levels for the systems were corrected to correspond with the
sensitivity/criticality levels reported in the Federal Information Processing Standards
(FIPS) 199 for FMC Network and SERVCON. The FIPS 199 security categorization for
the FMC Network was reported as Confidentiality-High/ Availability-High/ Integrity-High.
The FIPS 199 security categorization for SERVCON was identified as Confidentiality-
High/ Availability-Moderate/ Integrity-High during its recertification of SERVCON in FY
2009.


Notification of Finding # 7: The FMC Network Domain Administrator accounts are
not appropriately segregated and monitored.
Recommendation(s)
We recommend OIT –
17. Change the password of the FMC Network Domain Administrator account and
    physically secure the password so that it is only available for authorized and
    documented network changes and/or emergencies.
Management’s Response
The Office of Information and Technology, in conjunction with the CIO is in the process
of developing a process by which every ninety days the Domain Administrator account
password is manually changed and physically secured in a designated location so it is
only available in authorized and documented network changes and/or emergencies in
accordance with finding #7, recommendation 17. This process will be in place by the
end of the first quarter of fiscal year 2010.


18. Restrict the FMC Network Domain Administrator privileges to OIT staff whose job
    functions require the access privileges; remove access for the ISSO to maintain
    segregation of duties.
Management’s Response
All Office of Information and Technology staff members that require elevated access
privileges have in addition to their regular user account, an account that is a member of
the Domain Admin group through which additional access rights are provided. These
accounts were created to provide Office of Information and Technology staff the ability
to perform their necessary job functions while providing accountability in regards to



                                           25
network access and configuration changes. The ISSO has additional duties within the
Office of Information and Technology which requires additional access privileges.


19. Document and implement policies and procedures (and if determined necessary
    hardware and/or software) for the ISSO to monitor the actions of all the FMC
    Network users, privileged users (super users) and domain administrator accounts.
Management’s Response
FMC Office of Information and Technology currently employs a process that captures
the server logs and moves them to a designated network location. The server/ Network
logs consist of application, security, and system logs and are kept for three years. The
FMC based on recommendation finding # 7, recommendation 19 realize the need for a
proactive network access monitoring process and will seek to identify a hardware or
software solution that will allow the ISSO the ability to receive alerts based on
predetermined criteria relating to network access. This process will be in place by the
end of the third quarter of fiscal year 2010.




                                           26
